CERTIFICATE OF COMPLIANCE
Case No. 19-212
Caption: Chad Wolf, et al. v. Innovation Law Lab,
et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 12,970 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 15, 2021

Sworn to before me on
January 15, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Com
0, 2 23

